HHS/OIG-Audit--"Audit of the California Department of Social Services
State Licensing Match System under the Child Support Enforcement Program, (A-09-97-00067)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of the California Department of Social Services State Licensing
Match System Under the Child Support Enforcement Program," (A-09-97-00067)
August 26, 1997
Complete Text of Report is available in PDF format
(80 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This report points out a need for improvement in the California Department
of Social Services (DSS) procedures for reporting on and measuring the effectiveness
of its license suspension program for collecting delinquent child support payments.
Although the DSS had a management information system for its Child Support Enforcement
program, the system did not identify and provide information on the amount of
collections of delinquent payments that were generated as a result of the license
suspension program. The DSS agreed with our recommendation for establishing
such procedures, and stated that it would pursue this as part of a statewide
automation effort for the program.